WAIVER

Supreme Court of the United States

No. 20-6510

Lawrence W. Ford v. Anita L. Budde
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Se Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I am a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature AIDS lin ce
Date: rh 4 2 Q

(Type or print) Name. “WHerese $ h dues
O Mr. .

WMs OMrs, C1 Miss

Fm Robi are SLU» Bese

Address__“\) washington Stryeut-
City & State Rend NX Zip £4502

Phone (ms) > 24 -3l S|
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce:

 

Obtain status of case on the docket. By phone at 202-479-3084 or via the internet at
hétp:/www.supremecourtus.gov. Have the Supreme Court docket number available.
